<html>
<title> - NOMINATION OF EUGENE L. DODARO</title>
<body><pre>[Senate Hearing 111-1076]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 111-1076

                     NOMINATION OF EUGENE L. DODARO

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION


                               __________

NOMINATION OF EUGENE L. DODARO TO BE COMPTROLLER GENERAL OF THE UNITED 
             STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

                               __________


                           NOVEMBER 18, 2010

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                  U.S. GOVERNMENT PRINTING OFFICE
63-869 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
CHRISTOPHER A. COONS, Delaware

                  Michael L. Alexander, Staff Director
                   Lawrence B. Novey, Senior Counsel
                      Jonathan M. Kraden, Counsel
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
        Amanda Wood, Minority Director for Governmental Affairs
                    Lisa M. Nieman, Minority Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk











                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     2
    Senator Akaka................................................     3
    Senator Carper...............................................    18
Prepared statements:
    Senator Lieberman............................................    23
    Senator Collins..............................................    24
    Senator Akaka................................................    26

                                WITNESS
                      Thursday, November 18, 2010

Eugene L. Dodaro to be Comptroller General of the United States, 
  U.S. Government Accountability Office:
    Testimony....................................................     4
    Prepared statement...........................................    28
    Biographical and Financial Information.......................    31
    Responses to pre-hearing questions...........................    79
    Letter from Office of Government Ethics......................   115

 
                     NOMINATION OF EUGENE L. DODARO

                              ----------                              


                      THURSDAY, NOVEMBER 18, 2010

                                       U.S. Senate,
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:10 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order.
    I apologize for being late. The subway actually did break 
down, but it was a healthy walk for me.
    Our hearing today is on the nomination of Eugene Dodaro to 
be Comptroller General of the United States and thereby to lead 
the Government Accountability Office (GAO).
    The next line in my statement is an understatement: Mr. 
Dodaro is not a newcomer to government. [Laughter.]
    Or to GAO. He joined GAO right out of college in 1973 as an 
entry-level auditor and in less than 10 years was elevated to 
the rank of senior executive. He served as Assistant 
Comptroller General of the Accounting and Information 
Management Division from 1993 to 1999 and Chief Operating 
Officer, which is the No. 2 position at the agency, for 8 years 
after that. For the past 2\1/2\ years, he has really ably led 
GAO as Acting Comptroller General.
    I must say in the selection process that led to this 
nomination there was a lot of pushing and pulling and concern 
about politics, but in the end the process and the President 
really did select the best possible person for this job. And I 
say that with such confidence because we know you, and we have 
worked so closely with you, and yours is clearly a merit 
selection, by no means influenced by politics, which is exactly 
what this position is all about.
    I think in a lot of ways we in Congress and more generally 
the American people--although they probably do not know your 
name or very few of them do--owe you a debt of gratitude for 
the work that you have done for almost 40 years to improve the 
performance and capacity of our government. This has risen to a 
crescendo demand from the public at this point, but you have 
been out there doing that all along.
    GAO is one of those Federal agencies that flies under the 
radar of most Americans. As an arm of the Legislative Branch of 
the government, GAO provides information and analysis to 
Congress and the Executive Branch, and I consider it to be 
really an independent, nonpartisan advocate for taxpayers on 
how their money is being spent.
    GAO does not offer policy proposals to solve the challenges 
on which it reports. That is the job of the President and 
Congress. Instead, we rely on a clear-eyed presentation of 
solid facts and constructive recommendations to help our 
government operate efficiently.
    And, Mr. Dodaro, that is exactly what you and those you 
have worked with, and now I hope will supervise, have done for 
many years. So I am delighted to preside at this hearing on 
your nomination and also pleased now to call on Senator 
Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    As the Chairman has indicated, today we consider the 
nomination of Gene Dodaro to head the Government Accountability 
Office as our Nation's next Comptroller General. As Congress's 
primary watchdog, the GAO has a critical role to play in the 
efficiency and effectiveness of government. Its independent 
audits and nonpartisan investigations help to identify wasteful 
and ineffective spending and to promote transparency and 
accountability.
    The GAO dates to 1921 when the Federal Government's 
financial management was in disarray. The country was awash in 
debt, saddled with the enormous costs of World War I. As the 
debt mounted, lawmakers faced a lack of reliable information 
and lax controls over government expenditures. In many ways, I 
have described what is happening today. Many observers, in 
fact, would say that we face similar tests today and that GAO 
has never been more important as we work to overcome these 
challenges.
    GAO has a broad oversight mandate to investigate Federal 
programs on behalf of Congress. To bolster its independence, 
the Comptroller General serves a single 15-year term, giving 
the GAO's leader an autonomy that transcends election cycles. 
Given the length of the term and the importance of the GAO 
mission, the Comptroller General must provide strong leadership 
and chart a visionary future for the agency.
    Our Nation desperately needs aggressive and independent 
oversight of the Federal Government. We are living in an era of 
historic deficits, crippling unemployment, and smaller budgets. 
As the government tightens its belt, the GAO, which has been 
labeled ``the American taxpayers' best friend,'' must remain an 
unabashed advocate for the public and a protective steward of 
Federal resources.
    At a time when virtually every household in America is 
grappling with tight finances, the objective, factual, and 
credible reports from the GAO provide an important accounting 
of the Federal Government's operations. These audits and 
investigations, aimed at uncovering waste, fraud, abuse, and 
mismanagement, can propel needed reforms, and indeed GAO's 
findings and recommendations are often the foundation for 
legislative or other congressional action.
    As the recent elections have made clear, the public is no 
longer willing to accept the status quo. That means that the 
obligation for Congress to effectively conduct oversight has 
never been more important. As the new Congress begins in 
January and as we look for ways to make our government more 
effective and accountable, the GAO and its next leader will 
play a critical role.
    As the Chairman has indicated, Mr. Dodaro's career at the 
GAO has spanned more than 30 years, and he has been Acting 
Comptroller General since 2008. I look forward to hearing more 
about his vision for this important agency, as well as 
discussing with him specific areas where I believe additional 
oversight is warranted. The next Comptroller General must 
ensure that the ``congressional watchdog'' zealously safeguards 
the interests of the American taxpayer.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    It has become a Committee rule that usually the Chairman 
and the Ranking Member only give opening statements, but I 
really would like to ask Senator Akaka if he would like to give 
an opening statement. He has been so much involved with you in 
the work of GAO.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Dodaro, I want to welcome you to this Committee and 
congratulate you on your nomination. And I also want to welcome 
your entire family and thank them for being here today and for 
their support throughout your career.
    My Subcommittee on Oversight of Government Management, the 
Federal Workforce, and the District of Columbia works closely 
with GAO to address management challenges on the high-risk list 
and to improve the Federal Government's performance. Effective 
management is vital to making sure the Federal Government can 
fulfill its mission as we confront serious fiscal challenges.
    I want to express my appreciation for your plans to promote 
greater awareness of financial literacy. Financial literacy is 
central to fostering a strong economic recovery and to the 
financial stability of millions of individuals and families.
    You assumed leadership of GAO as the Acting Comptroller 
General 2 years ago during a very challenging time. Your strong 
performance over the past 2 years gives me confidence that if 
you are confirmed GAO will continue to provide Congress with 
the high quality, objective information that is critical for 
effective oversight, and I look forward to that.
    Mr. Dodaro, thank you very much for agreeing to serve in 
this position. I wish you well in your confirmation process.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Akaka.
    Mr. Dodaro has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. This information, 
without objection, will be made part of the hearing record, 
with the exception of the financial data, which are on file and 
available for public inspection in the Committee offices.
    Mr. Dodaro, I know you know that our Committee rules 
require that all witnesses at nomination hearings give their 
testimony under oath. So I would ask you to stand and please 
raise your right hand.
    Do you swear that the testimony you are about to give will 
be the truth, the whole truth, and nothing but the truth, so 
help you, God?
    Mr. Dodaro. I do.
    Chairman Lieberman. Thank you. Please be seated. We would 
welcome an opening statement, if you would like, now and the 
introduction of any family members or others that you have with 
you.

TESTIMONY OF EUGENE L. DODARO \1\ TO BE COMPTROLLER GENERAL OF 
    THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the Appendix on 
page 28.
---------------------------------------------------------------------------
    Good afternoon to you, Senator Collins and Senator Akaka. I 
am very pleased to be here.
    I am pleased to be here with my family supporting me as 
they have throughout my career. My wife, Joan Dodaro, is here, 
along with my oldest daughter, Sara, and her husband, Jeremy 
Carver, and my grandson, Bryce, who has made his presence known 
already. He is actually one of the reasons I am pursuing this 
job after a lengthy career and going forward because of the 
significance of the issues that all of you mentioned today.
    I also have my son, Benjamin, who is behind me here, my 
youngest daughter, Samantha, and her fiance, Chris Carley.
    I would also like to recognize my parents. I know they are 
watching via the computer. My mother never had a computer until 
I became Acting Comptroller General. Now she is an elder geek. 
[Laughter.]
    So I know that she is watching very carefully. They have 
all been very supportive of me.
    I appreciate the opportunity to be here today to discuss my 
nomination for the Comptroller General position. I want to 
thank the bipartisan bicameral Congressional Commission for 
having trust and confidence in me and forwarding my name to the 
President, which included you, Senator Lieberman, and Senator 
Collins. Thank you.
    I also appreciate the trust and support entrusted to me by 
President Obama in nominating me for this position.
    I would also like to take this unique opportunity to thank 
the thousands of GAO people who have worked with me over the 
many years, and if it were not for their dedicated and talented 
support I would not be here before you today.
    I have, as you mentioned, answered many questions and 
provided a lot of information for the record about my views on 
the GAO, the roles and responsibilities of the Comptroller 
General, and my vision for leading the organization. There are 
a few points, however, I would like to emphasize this morning.
    I pledge to faithfully and diligently carry out the mission 
of the GAO to support the Congress in carrying out its 
constitutional responsibilities and to help improve the 
performance and accountability of the Federal Government for 
the benefit of the American people.
    As you mentioned in your opening comments, there are many 
domestic and international challenges confronting our country 
now that are important to the well-being of our citizens and 
the security and prosperity of our country, and GAO can help. 
We can help by continuing to provide an important source of 
independent, professional, fact-based, nonpartisan information 
to the Congress, to help it make important policy choices and 
to exercise its oversight responsibilities, to help make sure 
that taxpayer dollars are spent in the best interest of the 
country and that government performance operates effectively 
for the benefit of our citizens.
    GAO is a trusted advisor to the Congress, and my view would 
be that we need to continue to enhance that responsibility, to 
tackle these difficult challenges going forward.
    Now my vision for accomplishing this would be to build upon 
the solid foundation that we have established in the GAO and to 
continue to enhance and evolve our role to support the 
committees across the Congress as an institution. GAO serves 
every standing committee of the Congress and about 70 percent 
of the subcommittees. So it is very important for us to know 
what the most important national issues are, to engage in a 
continuing dialogue with Members of Congress and their staffs, 
to make sure that we are working collaboratively and 
identifying the most important issues for GAO to work on, and 
for us to have the talented and dedicated support of the people 
necessary to be able to do that.
    So the first point I would make is that GAO is a full-
service organization, and it will remain so going forward if I 
am confirmed as Comptroller General, and it will continue to 
enhance its capabilities across the board.
    Now within that broad context of supporting the institution 
of the Congress, I would like to see GAO place an even greater 
emphasis on identifying high-risk areas across the Federal 
Government and working collaboratively with the Congress, the 
agencies on the high-risk list, and the Office of Management 
and Budget (OMB) to resolve the problems. I would, if 
confirmed, want to during my 15-year tenure see as many areas 
as possible removed from that list and if any new ones are 
added that they are successfully tackled and addressed.
    I believe this can be done by elevating the attention to 
those high-risk areas within the agencies, setting good 
milestones and performance measures, and continued diligent 
oversight from the Congress. I know this Committee has 
supported us in our high-risk efforts over time, and I think 
GAO can do more, while maintaining its independence, to apply 
additional specifics and encouragement and direction to the 
agencies to fix these very important problems. If we can fix 
these important problems of high-risk areas across the 
government, we can make a significant contribution to a more 
efficient and effective government, save billions of dollars, 
and improve services to the taxpayers.
    I also think GAO needs to remain an important voice, 
advising the Congress on the financial condition of the country 
and its fiscal outlook, and to identify ways to improve 
government to make it more fiscally prudent and sustainable in 
the long run. This involves working with Congress and the 
agencies to reduce billions of dollars in improper payments, to 
identify areas of duplication and overlap that can be 
addressed, to try to identify additional ways to save money and 
to enhance revenues, and very importantly to also continue our 
forensic audit activities to ferret out fraud, waste, and abuse 
in the Federal Government, and to try to successfully tackle 
that and eliminate it.
    In my view, Senators, addressing our long-range fiscal 
outlook in this country is going to involve shared sacrifices 
by many people, and those sacrifices will be more easily borne 
if they know government is running as efficiently and as 
effectively as possible, and they really would rely on GAO to 
continue to do that.
    Now in order to carry out this vision, we need to continue 
to have a first-rate workforce in our organization. We have 
many highly skilled people. We have great capabilities. But we 
need to continue to enhance that to carry out our 
responsibilities in the future.
    I would particularly try to add additional resources in 
technology, science, and engineering because they are very 
important to solving many of our problems in this country, 
going forward. I have been doing that all along, but we need to 
continue to enhance those skills in our organization.
    Plus, we have a new union at GAO. I am pleased that we have 
just reached our first tentative collective bargaining 
agreement that will go to the bargaining unit for ratification 
and approval, and I hope that is completed and I can sign off 
on that by the end of the year.
    We have tremendous people at GAO. I am committed to working 
with our union, our employee groups, and all the people in GAO 
to continue to maintain and enhance its status as one of the 
highest ranked, best places to work in the Federal Government.
    We can make a great organization even better, working 
together, and I will do that, and it will be a hallmark of our 
organization. It is of paramount importance that we have a high 
performing, well-motivated workforce where everybody feels 
respected and treated fairly, and I am committed to making sure 
that happens.
    I would also like to thank this Committee for the support 
that they have given the GAO over the years, particularly your 
unwavering commitment to our high-risk areas and programs. That 
has been very important to us.
    I also want to thank you for reporting out S. 2991, which 
would enhance GAO's access authorities. It would provide a 
legislative remedy to address the Walker v. Cheney situation 
and give us additional access authorities, which we need in 
order to get the information, to do the analysis, to be able to 
provide to the Congress. By and large, we get great cooperation 
from the Executive Branch, but there are cases where we need 
those authorities bolstered by this legislation, and I would 
encourage you to continue to ensure that it be passed, 
hopefully this Congress.
    In closing, I would welcome the opportunity, if confirmed, 
to lead the GAO during this important period in our country's 
history. I pledge to do it with a commitment to our core values 
of accountability, integrity, and reliability and to work with 
my colleagues in GAO to make sure that we remain a strong, 
steadfast, nonpartisan watchdog for the taxpayers, a trusted 
advisor to the Congress, and a leading force in bringing about 
a more effective and efficient government for the benefit of 
all.
    I thank you very much for your time and attention today. I 
would be happy to answer any questions, and thank you again for 
the opportunity to be here.
    Chairman Lieberman. Thank you very much for that excellent 
opening statement.
    I must say, Mr. Dodaro, that I have thought about this 
before in the many times you have testified, and no less today. 
You always seem to have such a command of the material you are 
presenting that you rarely have a text in front of you, which 
is quite unusual. I think I would later like to call your 
children to the witness stand and ask if you remember 
everything they did over their lifetimes, but I will not. 
[Laughter.]
    It is very impressive, it is very unique, and I appreciate 
it. We always feel like you are talking directly to us.
    I am going to start my questioning with the standard 
questions we ask of all nominees. First, is there anything you 
are aware of in your background that might present a conflict 
of interest with the duties of the office to which you have 
been nominated?
    Mr. Dodaro. No.
    Chairman Lieberman. Second, do you know of anything 
personal or otherwise that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Dodaro. No.
    Chairman Lieberman. And then finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Dodaro. Yes, I do.
    Chairman Lieberman. I appreciate your answers.
    I think the first couple of questions that I have really 
pick up from your opening statement.
    I appreciate the fact that you have set a goal for yourself 
to try to reduce the agencies, or alter at least the agencies, 
that appear on the high-risk report list. That is a very 
important document to our Committee that GAO prepares at the 
start of every session of Congress because it does help us 
highlight troubled areas that need more work. But the truth is, 
as you have indicated, there are too many departments and 
agencies that continue to appear there, and that is really not 
acceptable.
    I just want to ask you to go on just a bit more about what 
you as Comptroller General have in mind to help those agencies 
and programs remove a high-risk designation. Is that a case 
where you will try to work more directly with the Executive 
Branch, or to work in combination with us here in Congress, to 
make sure that the agencies know that we are just not going to 
accept them repeatedly appearing on this high-risk list?
    Mr. Dodaro. Yes, Senator, I appreciate the opportunity to 
talk a little bit more about that.
    First of all, I have been involved with the high-risk 
program for many years, and it has been used as a source of 
input for Presidents' management agendas dating back to 
President Clinton through the Bush Administration and now the 
Obama Administration. And what was started during the Bush 
Administration were meetings between GAO, OMB, and the agencies 
on the high-risk list, and they were committed to having a 
corrective action plan.
    Well, what I have suggested, and we have started working 
with now Acting Director Jeff Zients over at OMB, is continuing 
to build upon that set of meetings between GAO, the agencies, 
and OMB. And I agreed to personally be involved in all those 
meetings as long as the deputy secretaries, at a minimum, were 
involved in the meetings. So we have elevated attention within 
the agencies and commitment on the part of the top leadership 
to address these problems.
    We have had dozens of meetings. I will be outreaching 
obviously to the Congress as an integral part of this, not only 
in providing oversight to encourage agencies to do this, but in 
many areas there are legislative remedies that are needed in 
order to fully address the underlying root cause of the high-
risk problem.
    So I see this as GAO providing sort of a force to bring all 
the proper people together, the Congress and the Executive 
Branch, at a high level, with an increased intensity. These 
meetings have led to more specificity about the problems, more 
suggestions about the solutions, and a sustained attention on 
the problem, and I think all those things will yield important 
outcomes.
    As Senator Akaka knows, he and Senator Voinovich have been 
focused on, for example, the personnel security clearances 
area, and they held another hearing this week on it. That 
attention is bringing about important progress.
    So I think elevating attention in this fashion is a 
constructive role for us. It does not impede our independence. 
We are not going to take anybody off the list until they 
deserve it, but we can provide more impetus for positive 
improvement.
    Chairman Lieberman. I think that is a great priority for 
you to commit yourself to because there is a way that when a 
high-risk report comes out, the agencies on it suffer some bad 
publicity for a day, and then for some of them, unless there is 
a driving follow-up mechanism such as the one you have 
described, it just goes away until the next report.
    We are guilty in that too because the flow of events around 
here take us onto the next piece of legislation or next 
hearing. So I really commend you for that, and I think you will 
produce some results there, and I appreciate it.
    In your questionnaire that you filled out for the Committee 
prior to the hearing, you highlighted an interesting thought, 
which is that you would use ``the unique position of the 
Comptroller General to promote greater financial literacy in 
the United States'' and that you would attempt to enhance the 
emphasis on financial literacy throughout our education system. 
That is a very interesting, different kind of initiative. So 
tell me what you have in mind.
    Mr. Dodaro. First, we are asked to look at the Federal 
Government's activities to promote financial literacy. 
Actually, the Wall Street Reform legislation that just passed 
mandates that GAO conduct a study on effective methods, 
strategies, and technological tools used to improve financial 
literacy and financial education programs. So we have a mandate 
from the Congress to look at this as a starting point.
    Senator Akaka and I have had many discussions about this as 
well.
    And there is a Financial Literacy and Education Commission 
comprised of 20 agencies across the Federal Government, and we 
have reviewed that, pointed out the need for greater strategic 
planning and the resources to be able to do it.
    The new Bureau of Consumer Financial Protection within the 
Federal Reserve, created by the Wall Street Reform Act, will 
also have an Office of Financial Education.
    We have looked at disclosures on mutual fund fees, credit 
cards, bank statements, the Social Security statement that is 
sent to everybody every year, disclosing their Social Security 
status. We have looked at retirement planning activities and 
disclosures on fees there.
    So we have a strong foundation for looking across the 
Federal Government and evaluating its activities to try to 
address financial literacy, and it is going to be very 
important.
    More people are taking on responsibilities for their own 
retirement planning going forward. We certainly saw what can 
happen with inadequate disclosures and understanding of 
different mortgage arrangements that were made and the 
aftermath of the housing situation that led to the recession. 
So I think there is an important need.
    Also, the American Institute of Certified Public 
Accountants (AICPA) has a financial literacy initiative. GAO 
has supported it. And they are working with State and local 
governments and educational institutions.
    I think with the trust and confidence that people have in 
the GAO and in the position of the Comptroller General, we can 
be a constructive force.
    I will also guarantee that whatever we do in this area, I 
will have extensive outreach with the Congress to make sure 
that everybody is comfortable with what we are doing, going 
forward. But I think it can have a lasting impact in our 
country.
    Chairman Lieberman. Yes, I agree. I urge you on in that.
    We all remember that your predecessor, David Walker, 
devoted a lot of time and energy to the so-called fiscal 
crisis, even went on a fiscal wake-up tour around the country. 
And this is a different way, not to go at quite the same 
problem, but it will affect that problem if we can raise 
financial literacy.
    Mr. Dodaro. It will empower people. I think part of this 
can be also education about the financing of the Federal 
Government.
    Chairman Lieberman. Correct.
    Mr. Dodaro. And the issue is to be able to do it and 
addressing it in that fashion.
    Chairman Lieberman. Thanks. My time is up on this round. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Like the Chairman, I want to start off with the high-risk 
list. This has been a valuable tool, but it is also a limited 
tool. It is really troubling to me that half of the original 14 
items on the high-risk list in 1990 remain on the list today. 
It is totally unacceptable for a program to remain a high risk 
for 20 years.
    A contributing factor to this problem is that GAO releases 
the list, Congress may hold a hearing on the issue, we look to 
the departments and to OMB to pay attention and take action, 
but we go away and do not look at the list again until the next 
Congress.
    I would like you to be more specific on how GAO could 
improve the utility of the high-risk list. One of the problems 
that I see with it, for example, is one of the areas that has 
been listed for the last 20 years is the Medicare program. 
Well, that is so huge that it is really not very helpful to 
tell Congress or even the Department of Homeland Security (DHS) 
that the Medicare program is high-risk. Probably everyone knows 
that. If GAO drilled down and selected specific aspects that 
make it high-risk, it would be more valuable.
    Mr. Dodaro. Yes, Senator. Let me address that. First, I 
would just say of the 14 areas that were originally on the list 
in 1990, half have come off during that period of time, but you 
are correct; half have remained on, including the Medicare 
area.
    I also would point out that 10 of the 19 that we have put 
on since 1990 have been removed. So progress has been made, but 
on the Medicare point, you are exactly right.
    I would mention a couple of things that we have done over 
time. When it was first put on the list, there was no 
measurement at all of the amount of improper payments being 
made under the Medicare program. People were estimating and 
guessing at the amount of fraud. Now there is a scientific 
statistical method for measuring the amount of improper 
payments.
    We have also pointed out additional opportunities to use 
pre-edit checks, to use more technological tools to prevent 
some payments in the beginning, and to use more diagnostic 
tools to do more medical reviews of the claims. Right now, less 
than 1 percent of the Medicare claims are subject to a 
subsequent review to determine if they are medically necessary. 
So we have a lot more specifics, and we are starting to engage 
in discussions in that area.
    So we can decompose the problem as you articulate, and that 
is what I would like to do. When I say ``greater emphasis,'' 
that is exactly what you are talking about--greater 
specificity, greater follow-through, and a clear message that 
we are not going to hold off. We are going to keep pressing 
until these problems get solved.
    Senator Collins. Right, because it should not be a one-shot 
deal----
    Mr. Dodaro. Right.
    Senator Collins [continuing]. At the beginning of each 
Congress, and that is true for us as well as for you.
    One very valuable reorganization that the GAO undertook was 
in 2005 when the Forensic Audit and Special Investigations Unit 
was created. I see the head of the unit in the front row. We 
have worked very closely with that investigative unit, 
including uncovering $1 billion in fraud in the wake of 
Hurricane Katrina, exposing the high risk for fraud and abuse 
in the Energy Star program, identifying misuse of Homeland 
Security grant money, and revealing lax procedures for securing 
a passport.
    Given what I view as the great success of this unit and the 
need for more aggressive oversight in this era of tight 
budgets, are you considering devoting more resources to this 
unit, which is currently very small.
    Mr. Dodaro. I am committed to enhancing the capabilities of 
the unit and to consider adding additional resources, Senator. 
I am very interested. I was involved in helping create the 
unit. It had great success, and we definitely are enhancing the 
tools, and I will do everything I can to try to enhance the 
level of resources there.
    And I would appreciate this Committee's support in helping 
GAO on its resource requests. I know you have in the past, but 
when I became Acting Comptroller General, we were at our lowest 
staffing level in GAO's history overall. And while I have been 
successful in working with the Congress in getting some 
additional resources over the past couple of years, we are 
still at a level of about 3,200 people when we had almost 2,000 
more people earlier.
    But to answer your specific question, yes, the resource 
investment in this group has paid off handsomely and with great 
dividends, and I will consider adding additional resources.
    Senator Collins. I hope you will because if you look at it 
from a cost-benefit ratio, this unit has produced so many 
valuable reports and investigations that have led to reforms 
that have really saved taxpayer dollars.
    Mr. Dodaro. The other thing, Senator, that we have done is 
to integrate that unit with other units, like, for example, the 
work we did for this Committee on the Federal Protective 
Service. They did some testing in the security area.
    Senator Collins. Exactly.
    Mr. Dodaro. So we are looking for integration. That will 
help leverage the resources as well.
    Senator Collins. Let me bring up in this first round a 
criticism of GAO's reports, and that has to do with the 
timeliness of reports, and this is probably directly related to 
resources, and I recognize that. But the pace of congressional 
oversight efforts cannot, at times, wait for months or even 
years for the completion of a GAO report.
    I know that you have to prioritize, that you are 
overwhelmed with requests, and from our perspective, you do a 
good job prioritizing requests from chairmen and ranking 
members, but the timeliness remains a problem. The best report, 
if we get it far after the problem has been allowed to 
languish, does us far less good than a timely report.
    What steps are you going to take to ensure that your 
reports are more timely?
    Mr. Dodaro. There are several things, Senator, that I have 
been and will continue to do to make improvements in this area.
    First would be to get a clear sense of the priorities of 
the committees. As you mentioned, on average for the last 
several years, GAO receives about a thousand requests from the 
Congress. For 3,200 people, that involves making sure we set 
the right priorities, working with the committees. So I plan to 
enhance that by trying to have meetings with the chairmen and 
ranking members to get their priorities for the upcoming 
Congress. I know there is a lot of discussion at the staff 
level, but I think a higher level discussion on the priorities 
would help ensure more timeliness.
    Second, we are looking at different product lines to 
provide more sophisticated briefings. We provide a lot of 
testimony, even on preliminary observations when we have done 
enough work to be able to do it. We also are adding additional 
technologies and tools.
    I am very pleased that also during this period of time, we 
have taken on more responsibilities for the Troubled Asset 
Relief Program, the American Recovery and Reinvestment Act, and 
now the Wall Street Reform Act, which has 44 mandates for GAO 
to do studies, 17 of which have to be done within a year.
    We also have a new requirement to do an annual report on 
duplication and overlap in the Federal Government.
    But in the last 10 years, we have also turned over our 
workforce in providing for succession planning, over half of 
our senior executives and half of our workforce. So we are 
working on training programs, tools, and techniques. I am 
trying to streamline some of our methodologies and 
administrative processes. I know it is an important area.
    The other thing, Senator, I would point out is that we also 
survey staff and Members of Congress after we issue a report, 
and one of the questions we ask is whether or not the report 
was received on time. Of those people who respond, 95 percent 
say that they have received the report on time. So I am 
watching.
    Timeliness is one of our performance measures, but your 
point is something that is a valid issue. I am aware of it, and 
I will work hard to improve it.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Dodaro, GAO has extensively studied the implementation 
of the Government Performance and Results Act (GPRA) and has 
found that while GPRA has established a solid foundation for 
improving results, the law has not reached its full potential. 
Do you have recommendations for Congress to improve GPRA?
    Mr. Dodaro. Yes, Senator, I agree with you. It has not yet 
reached its full potential, and there is more that could be 
done. What it has done though is generate more performance 
goals and measures than existed at the time the Act was passed 
in 1993, but they are not being used to their full potential.
    I think there needs to be more discussion with the Congress 
in agreeing on some of the goals, having more oversight, and 
reviewing whether or not the goals have been achieved over a 
period of time.
    The same thing is true for the leadership in the 
departments and the agencies. Particularly when you have 
changes in the top leadership in the departments, there is not 
always continuity over time. The average tenure of a political 
appointee is still roughly around 2 years, and so you need 
continuity over time to measure performance and to take action 
on it. Congress can play an important role.
    Also, the other aspect of the Government Performance and 
Results Act that has never really been implemented fully is the 
governmentwide performance plan. There are more and more 
problems now that require multiple agencies to put forth 
efforts to be able to achieve improvements, and I would 
encourage the Congress to push to have at least a set of cross-
cutting objectives and performance measures that could be used 
to help address that statutory requirement that is yet 
unfulfilled.
    Senator Akaka. Mr. Dodaro, I want to congratulate GAO and 
the GAO Employees Organization for working together to reach a 
tentative agreement on a master collective bargaining 
agreement, and I am pleased you are looking forward to signing 
it. If confirmed, what specific actions would you take to 
sustain the productive relationship of mutual trust with your 
employees and their representatives?
    Mr. Dodaro. It is very important for me to have mutual 
respect and trust with the GAO workforce. I meet periodically 
with the union leaders in what we call ``pulse check meetings'' 
to make sure we are staying on track. I have met with the 
national leaders as well as the leaders of the GAO union.
    I have reestablished employee groups for people not in the 
bargaining unit to provide advice to me.
    We also have created a diversity advisory council to 
provide advice. We have created workforce diversity plans and 
training.
    The GAO people are a great workforce. Everybody is 
committed to the mission of the GAO and to continue to make 
improvements, and the challenge is to make sure that we are 
always open for feedback from our workforce to be able to 
continuously make improvements. And my philosophy is as long as 
there is good faith on all parties, we will continue to make a 
great organization even better.
    Senator Akaka. Mr. Dodaro, I want to commend GAO again for 
achieving the second highest ranking in the recent Best Places 
to Work Survey. Why do you believe GAO is considered one of the 
best places to work, and are there specific policies, such as 
telework, that have had a positive impact on performance and on 
morale?
    Mr. Dodaro. Definitely, Senator. First, I would say one of 
the underlying reasons, basic reasons, is the mission of the 
organization--to make a difference and improve government. 
People come to GAO and they stay because they can make a 
difference, but you need to have a good working environment.
    We have flexible working arrangements with telework. We 
have a daycare facility in the GAO. We provide support for 
student loan repayments. We provide a good education program. 
People like to continuously learn and improve their skills. So 
we try to achieve the best work-life balance, family balance, 
that we can in the environment. So I am always looking for ways 
to hear from our workforce about how to improve it.
    Telework has great potential. When the Congress had to 
leave the buildings during the anthrax attacks, which is the 
first time that the Capitol was evacuated since the War of 
1812, the House of Representatives came to the GAO to conduct 
their business for 2 weeks, and we allowed a great deal of our 
workforce to telework during that period of time.
    And during this latest snowstorm that we had this past 
year, we were able to still issue reports during that period of 
time. So I am a big fan of telework. I think it is a terrific 
tool for the organization, and people respond.
    Senator Akaka. Mr. Dodaro, the Federal Government must deal 
with problems that cut across agencies, yet too often agencies 
do not work together to solve these complex problems. This 
Committee approved legislation that would require the Director 
of OMB to work with agencies to develop and implement plans 
that address long-term Federal Government priority goals that 
cut across agencies. Do you believe there is a need for 
legislative emphasis on issues that involve multiple agencies?
    Mr. Dodaro. Yes, I do, Senator. Things have changed in 
terms of the complexities of problems, and you need to have 
more agencies working collaboratively together. Whether you are 
talking about preparing for a pandemic or you are talking about 
Homeland Security issues, food safety, or modernizing 
disability programs, multiple agencies are involved, and there 
are not really always very good, well-functioning mechanisms to 
do that.
    Legislative initiatives to further those goals are 
important. I think, longer term, there needs to be some 
additional discussion about how best to organize government to 
take on some of these challenges. But in the short term, 
legislation from the Congress would be very important to help 
spur that on.
    Senator Akaka. Thank you very much for your responses.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Akaka.
    I just have one or two more questions. This one is a 
general question which will perhaps take you into an area that 
we normally rely on the Congressional Budget Office (CBO) for, 
but I wanted to get your reaction to it, which is whether GAO, 
in its policy reviews and audits, should take on the 
responsibility of informing Congress when you and your staff 
conclude that a legislative mandate that we put on an agency is 
either very difficult to achieve or too costly, perhaps even 
prohibitively costly.
    We are in a time when we are looking for every possible way 
we can begin to fulfill our responsibilities to the public, but 
do it in a more efficient way or with the aim of trying to 
eliminate the Federal debt. So what would you think about that 
added GAO responsibility?
    Mr. Dodaro. Senator, I have been involved in a number of 
discussions over time about a GAO role in assessing the 
programmatic and managerial challenges and feasibility of 
proposed legislation, and in regulatory issues as well. My view 
is GAO has a lot of potential to add in a lot of different 
areas, but unless it comes with additional resources, all we 
are going to do is exacerbate the already existing problem that 
Senator Collins pointed out, which is that we cannot do more 
work unless we have more resources without sacrificing the 
quality of what we do.
    I will never sacrifice the quality of GAO work, either for 
expediency or for other purposes. It does not serve the 
Congress well, it does not serve the American people well, and 
it does not reflect well on GAO. So quality is very important. 
We have our reputation that we built up over a period of time. 
That could be lost very quickly without a commitment to 
quality.
    But going back to your point, I certainly think we could do 
more, but we need more resources to be able to do that.
    Chairman Lieberman. Let us continue that conversation 
because I think since you are into the agency so often on 
audits--I understand it takes more work--it could be a real 
value added for Congress and for the taxpayers.
    The final question is a personnel-related matter. It is 
interesting that GAO has implemented performance-based 
compensation. And I wonder if you could describe it a bit, how 
it is working, and whether it is going to be permanent or 
whether it is a model for other parts of the Federal 
Government.
    Mr. Dodaro. Well, in the personnel performance-based 
compensation area, I would say, like a lot of organizations, we 
have had our ups and downs with it, and actually 
dissatisfaction with some of our approaches led to the 
formation of our union. So one of the things I did as Acting 
Comptroller General is work with the Congress to get 
legislation to provide a floor guarantee for our organization.
    I think the most difficult part of this in the Federal 
Government, Mr. Chairman, is to have a system that not only 
rewards individual people for what they do, but promotes 
teamwork. And it promotes organizational goals as well, so 
people work together and feel like they are rewarded properly, 
and you have the right type of incentives, and there is a 
fairness and equity.
    Now I have commissioned a top-to-bottom study of our 
performance management system. People in GAO are not satisfied 
with it. And we just hired a contractor. We are working with 
the union, working with the employee groups, and we are going 
to come up with a new system.
    And I am pledging that we are going to work cooperatively. 
It is going to be something that we gain as much consensus as 
possible from our employees because unless they believe in it, 
they will not believe it is adequate and fair.
    And we are also going to focus on it in the context of 
trying to improve performance and improve people in a 
constructive way and not have just sort of a one-time kind of 
an assessment.
    I will report back to you. My goal is to come up with 
something that is a model, that could be done in a collective 
bargaining agreement and could be useful to others. Right now, 
we are not there yet.
    Chairman Lieberman. Interesting. So you are committed to 
the principle or the policy of performance-based compensation, 
but you are trying now to work with the consultant and the new 
union to see if you can do it in a way that the employees will 
accept.
    Mr. Dodaro. Yes, I think it is pivotal to have the 
underlying mechanism that you use to make decisions to pay 
people based on performance to have credibility. Then you can 
do more with it if you have that buy-in and commitment.
    Chairman Lieberman. Just briefly, what were the one or two 
top gripes or, to be more senatorial, sources of 
dissatisfaction of the employees? [Laughter.]
    Mr. Dodaro. Too complex. Not equitably administered across 
a period of time. Not enough transparency.
    So our goal is greater simplicity, greater focus on 
improvement in a constructive fashion, and a system that has 
more transparency and equity.
    Chairman Lieberman. Good. Keep us posted on that. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Just to follow up on that issue, I am a little concerned as 
I have listened to your approach. Certainly in order to have an 
effective pay-for-performance program, you do need to have 
credibility, and you also need to have very good training so 
that managers apply it fairly.
    But I hope you are not saying that you are backing away 
from the principle of pay for performance. I think we need to 
extend that principle throughout the Federal Government, and I 
hope that your reaction to the employees' dissatisfaction and 
decision to recognize a union is not to back away from a merit-
based system.
    Mr. Dodaro. By no means, Senator Collins. By no means, but 
I want one that everybody agrees with.
    Senator Collins. But that is unlikely to ever happen in a 
merit-based system.
    Mr. Dodaro. Right, but you need to have a core of consensus 
to be able to do it, and I may not be able to achieve it.
    I am an optimistic person by nature, and I am committed and 
dedicated to try to do that, but by no means am I backing away 
from pay for performance. Our people want it. They expect it. 
And I want to do it in a manner where it is not only a good 
system, but we have the proper training and the proper 
safeguards in place where everybody feels equitably treated.
    Senator Collins. Let me switch to a different role that GAO 
plays that I think a lot of the public is not aware of, and 
that is the bid protest process where GAO provides a vital 
forum for resolving government contracting disputes and 
ensuring that the applicable laws and regulations are followed.
    In the National Defense Authorization Act for Fiscal Year 
2008, there were provisions expanding the protest rights for 
the award of task and delivery orders valued at more than $10 
million. Our concern was we were seeing more and more of these 
indefinite quantity, indefinite time contracts under which 
there were task and delivery orders that end up being valued at 
a lot of money. So that provision expanding those protest 
rights expires in May of next year. Do you support extending 
the sunset date for that provision so that GAO could continue 
to hear cases involving bid protests of task and delivery 
orders?
    Mr. Dodaro. We are in the process of reassessing that 
issue. I think it makes sense to extend the provision.
    What I am concerned about is, again, the resources. We 
absorbed that responsibility within the existing resources, and 
I will provide input to this Committee and other committees on 
what our needs may be if that is extended going forward, but we 
certainly think that it has proven to be a valuable addition.
    Senator Collins. Let me just ask one final question. I may 
have a few more for the record, but I know, as you pointed out, 
you have probably answered hundreds already.
    But that has to do with information technology. It is 
really disturbing to look across the Federal Government and see 
billions of dollars that have been wasted on failed information 
technology (IT) projects, whether it is at the Federal Bureau 
of Investigation or the Census Bureau, almost anywhere that you 
look.
    GAO has provided guidance to improve the Administration's 
Office of E-Government as it developed new initiatives such as 
the IT Dashboard and TechStat sessions. This consultative role 
is unique for GAO, as it is outside the traditional audit or 
investigative role. How has that worked from GAO's perspective?
    Mr. Dodaro. Well, we value and always preserve our 
independence, but there is a great degree of room there for us 
to provide that type of assistance. And actually that is one of 
the things that I have been involved with for a long period of 
time. During the Year 2000 (Y2K) scenario, we provided 
guidance, which then got adopted by the Executive Branch in 
order to prepare properly. We did best practices research that 
led to the establishment of Clinger-Cohen legislation. We have 
just put out a cost estimating----
    Senator Collins. Cohen-Clinger, in Maine. [Laughter.]
    Mr. Dodaro. Oh, I am sorry. Excuse me, Senator.
    Senator Collins. That is all right. I will let it go.
    Mr. Dodaro. Actually, we worked closely with Senator 
William Cohen on that. In fact, he hosted a 10-year celebration 
of the passage of that legislation, which I attended.
    But to go back to the issue, we have just developed a cost 
estimating guide with input from people across government on 
experts, and now it is posted, and I am trying to get the 
Executive Branch to implement it on a consistent basis. We are 
going to develop one on scheduling.
    So GAO can, must, and will provide additional guidance, 
support, encouragement, and consultation to improve programs 
and address problems. That is part of the philosophy I have on 
trying to address these high-risk problems as well.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins. 
Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    I have just one final question to ask, and that comes after 
the Chairman raised the question of financial literacy. It made 
me curious about what you are doing with it. I am pleased that 
you plan to make promoting financial literacy in the United 
States a priority as Comptroller General. I would like you to 
discuss why you believe that this issue is important enough to 
warrant the attention of the Comptroller General and GAO?
    Mr. Dodaro. I think, Senator, that there is increased 
complexity of financial products going forward that the people 
have to be prepared to address, whether we are talking about 
the mortgages or investment strategies. In the retirement area, 
in the move from defined benefit to defined contribution plans, 
people are having to manage their retirement accounts more on 
their own. There is increased complexity in terms of the 
available investment decisions to do that. Disclosures are not 
always clear.
    I think that it is an important role as the government 
provides advice and assistance to help empower people to make 
good decisions, whether it be on health care, education, etc., 
and that financial literacy is a very important part of that 
responsibility. As I mentioned earlier, we will be evaluating 
many of the Federal Government's efforts to be able to do that.
    But I also think GAO has an important advantage with the 
15-year term of the Comptroller General to be able to do 
something that is going to span a period of time to increase 
the capacity. We have the convening power to work with the 
private sector, to work with State and local governments, and 
to work with educational organizations to help support the 
government's efforts and objectives, which are stated 
objectives of the Federal Government.
    So I feel very strongly about this. I will always consult 
with the Congress on how we are going to do this approach, and 
I look forward to your support. I know you are a big supporter 
of this, and other support from the Congress would help us in 
our endeavors to help others.
    Senator Akaka. Thank you very much for your response.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
Carper, welcome. Glad you are here.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman. I am happy to be 
here. It is nice to see you and our colleagues.
    Mr. Dodaro, welcome.
    I am going to ask a couple of questions. I think at least 
one has already been asked, but I just want to ask it again for 
the record. Why is it when you speak or provide testimony you 
never use notes? [Laughter.]
    Mr. Dodaro. I believe it is important to talk directly to 
the Members of Congress and engage in a conversation and a 
dialogue, Senator.
    Senator Carper. Why is it when you answer our questions, 
you never use notes? [Laughter.]
    Mr. Dodaro. For the same reason, Senator. I also always 
remember your comment about Winston Churchill, and I am not 
there yet either.
    Senator Carper. You had a lot of comments in your 
repertoire---- [Laughter.]
    Why is it there is usually somebody either over your left 
or your right shoulder that whenever you speak I can see their 
lips move? [Laughter.]
    Mr. Dodaro. Today, it is my 2-year-old grandson, and he is 
providing my----
    Senator Carper. He is good.
    We are glad you are here. I understand your wife--is it 
Joan?
    Mr. Dodaro. Yes, Joan.
    Senator Carper. Over your left shoulder. Joan, how are you?
    Thank you for sharing this guy with us and letting him go 
through this job interview with all of us.
    I have a more serious question if I could. I think it is 
this year, maybe early next year, that we mark an anniversary 
that most people have no idea is coming, or has come, and that 
is the 20th anniversary of the creation of the Chief Financial 
Officers Act. And I just want you to talk to us a little bit 
today about the potential that was maybe envisioned when that 
legislation was adopted 20 years ago and where you think that 
potential has been realized and maybe where it has not.
    Mr. Dodaro. Yes, I would be happy to. I have been involved 
in that for a number of years.
    Senator Carper. Have a lot of other people already asked 
that question?
    Mr. Dodaro. No.
    Senator Carper. I am surprised.
    Mr. Dodaro. But I am ready for it. [Laughter.]
    That legislation was a big priority for Comptroller General 
Charles Bowsher at the time, and it took us almost a decade to 
convince Congress to pass that legislation, which was then 
expanded in 1994 to create financial statements and audits 
across the Federal Government. It was important to establish 
chief financial officers and deputy chief financial officers 
with set qualifications in the statute to provide the necessary 
leadership in those areas.
    The Federal Government was the last sector of our economy 
to use and prepare financial statements and have them audited 
even though they required them of State and local governments, 
as you know as a former governor, in order to receive revenue-
sharing money. And we have had financial audits of publically 
traded companies for a long time. It was to provide more 
reliable cost information.
    We went from a situation where in 1994, 6 out of the 24 
largest departments and agencies were able to get a clean audit 
opinion. Now it is 20 out of 24.
    Senator Carper. Who are the outliers? Can you help us with 
that?
    Mr. Dodaro. Sure.
    Senator Carper. The Department of Defense (DOD)?
    Mr. Dodaro. DOD, the Department of Homeland Security, the 
State Department, and the National Aeronautics and Space 
Administration (NASA), I think, are the ones that I remember 
off-hand. I am not sure of the last two; I will correct the 
record if I need to on that.
    Senator Carper. Thanks.
    Mr. Dodaro. And it was to lead to more reliable information 
for day-to-day decisionmaking and to provide better cost 
information.
    So there has been a lot of progress in that area, but it 
has not reached its full potential yet. I think that more now 
than ever we need to have more reliable data to manage the cost 
of the government and to be able to assess programs and 
policies. A lot of times we focus on the outcomes, but we do 
not focus on what it costs to achieve the level of an outcome, 
and that is because we rarely have very good information to be 
able to do that.
    So I think the Chief Financial Officers Act, the Cohen-
Clinger Act, and Chief Information Officers----
    Senator Carper. You said Cohen-Collins? [Laughter.]
    Mr. Dodaro. I was attempting to get the right order in the 
Senate this time with Cohen-Clinger.
    But those were all very important----the Government 
Performance and Results Act--were all good management tools 
that were put in place in the 1990s. I do not think any of them 
have reached their full potential yet.
    Senator Carper. Let me just interrupt you. Any ideas as to 
what we can do in the Legislative Branch here to better ensure 
that we reach the potential that was envisioned?
    Mr. Dodaro. I think there is no substitute for regular 
congressional oversight and sustained attention to problems, 
starting with the high-risk areas. Congress has an important 
role to play and needs to play that role. So I would encourage 
you to have as much oversight on these issues as possible, and 
I will support you and others on that.
    Senator Carper. I do not know if the questions were any 
good, but I think those are really good answers, and I think 
the answers are very helpful, certainly to me, and I hope to 
our colleagues.
    I do have one more question if I could, Mr. Chairman.
    As you know, I am privileged to chair a subcommittee. It 
may have the longest name of any subcommittee in the Senate. 
When I describe it at home, I say it is a subcommittee that 
enables us to look in a lot of different corners in the 
government and to try to make sure we are spending money in a 
cost-effective way.
    Having a little subcommittee with eight or nine members, it 
is hard to really do any kind of realistic job in overseeing 
Federal spending. It is hard to do with the full committee, 
even with all the staff and good people we have on the 
Committee. But one of the things we have sought to do is to 
partner with others who have a similar goal--that is, cost-
effective spending of the taxpayers' money.
    I have never seen this happen before. [Laughter.]
    Mr. Dodaro. They are enabling me to correct the record in 
real time on the four outliers. In 2009--actually, I was 
correct--DOD, DHS, NASA, and State. In 2010, it is DOD, DHS, 
Department of Labor, and NASA having a qualified opinion.
    Senator Carper. Thanks a lot.
    We have our Committee. We have GAO who has primary 
responsibility to make sure we spend money cost effectively. 
OMB has an interest in that, and all the inspectors general 
from all the different agencies. There is great interest in 
doing this. CBO probably has a real interest in doing this. 
There are a bunch of nonprofit organizations that are 
interested in reducing waste.
    For us, in terms of leveraging the effectiveness of a 
committee or a subcommittee, I think a good idea is to partner 
with all of these agencies. And we have been partnering so well 
that we brought the deficit down I think for the last fiscal 
year to just under $1.3 trillion and the year before that, $1.4 
trillion, which suggests that we can do better.
    How do you think we could do better to improve on this 
partnership with an eye toward results?
    That is my last question, Mr. Chairman.
    Mr. Dodaro. I mentioned earlier, Senator Carper, I think 
that the high-risk list that we have created really highlights 
appropriate areas to focus on. I want to make that a priority 
for me during my tenure. I think partnerships would be good to 
be able to address those problems, to get more specific, and to 
really work collaboratively.
    You know the inspectors general, by statute, have to list 
management challenges in their departments and agencies. They 
overlap with some of the high-risk areas. They have insights. 
Some of them, like the Medicaid program, involve State and 
local auditors. I have tried to partner with them as well. So I 
think there is a lot of room for partnerships in that area that 
have already demonstrated big problems that would have big 
payoffs.
    Senator Carper. Thanks so much.
    Mr. Dodaro. Sure.
    Senator Carper. And thank you for your willingness to do 
this. Thank you for your stewardship.
    And for those who support you, including your wife, our 
thanks to you.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Carper.
    Before we close the hearing, I wanted to thank you for 
Monica Anatalio, who is a GAO detailee to our Committee in the 
area of oversight of government contracting. Our normal person 
on that is off on maternity leave. And it is a really important 
function we have, and she has done excellent work in helping 
us. So I appreciate that.
    I want to thank you for your appearance before the 
Committee today and for all that you have done in GAO over the 
years. You are the perfect person for this position right now. 
We are going to try to move you through as quickly as we can 
and obviously hope to get you confirmed before this so-called 
lame-duck session ends.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Usually at this point in the hearing, Mr. Chairman, I 
announce whether I am inclined to support the nominee or not. 
In this case, since both you and I recommended the nominee, it 
kind of takes the suspense out of these final moments. 
[Laughter.]
    So let me just conclude by saying that I look forward to 
working with the nominee as we go forward. Thank you.
    Chairman Lieberman. Thank you, Senator Collins.
    Without objection, the record will be kept open until noon 
tomorrow for the submission of any written questions or 
statements for the record.
    Mr. Dodaro, would you like to say anything in closing?
    Mr. Dodaro. I would just like to thank you and Senator 
Collins for your support all along. I look forward to working 
with you. I am committed to fulfilling our responsibilities as 
a watchdog, protecting the taxpayers' interests, and improving 
government. I will do everything in my power to lead this 
organization successfully.
    Chairman Lieberman. I know you will. Thank you.
    The hearing is adjourned.
    [Whereupon, at 4:23 p.m., the Committee was adjourned.]





                            A P P E N D I X

                              ----------                              



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
